HHS/OIG - Audit,"Audit of Administrative Costs Claimed Under Part A of The Health Insurance for Aged and Disabled Program by Veritus, Inc. for the Period October 1, 1994 through September 30, 1997,"(A-03-01-00005)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Administrative Costs Claimed Under Part A of The Health Insurance for Aged and Disabled Program by Veritus,
Inc. for the Period October 1, 1994 through September 30, 1997," (A-03-01-00005)
February 22, 2001
Complete
Text of Report is available in PDF format (1.42 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit report, prepared by the certified public accounting firm of Doshi & Associates, P.C.,  presents the
results of a review of Part A administrative costs claimed by Veritus, Inc. for the period October 1, 1994 through September
30, 1997.  The auditors questioned $344,231 of $54,304,559 claimed because the costs were either unallowable, excessive,
unsupported, or applicable credits to the program were understated.